<html>
<title> - OBSTRUCTING OVERSIGHT: CONCERNS FROM INSPECTORS GENERAL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





        OBSTRUCTING OVERSIGHT: CONCERNS FROM INSPECTORS GENERAL

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2014

                               __________

                           Serial No. 113-153

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-650 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2014...............................     1

                               WITNESSES

The Hon. Michael E. Horowitz, Inspector General, U.S. Department 
  of Justice
    Oral Statement...............................................     6
    Written Statement............................................     9
The Hon. Arthur A. Elkins, Jr., Inspector General, U.S. 
  Environmental Protection Agency
    Oral Statement...............................................    14
    Written Statement............................................    16
Ms. Kathy A. Buller, Inspector General, Peace Corps
    Oral Statement...............................................    21
    Written Statement............................................    23

                                APPENDIX

Sept. 9, 2014, letter to Chairman Issa from OMB submitted by 
  Chairman Issa..................................................    58
Aug. 5, 2014, letter to Reps. Issa, Cummings, Carper, and Coburn 
  from 47 IGs, submitted by Rep. Chaffetz........................    61
Aug. 8, 2014, letter to OMB from Reps. Carper, Coburn, Issa and 
  Cummings, submitted by Rep. Walberg............................    69
Statement for the record from The Institute of Internal Auditors.    71

 
        OBSTRUCTING OVERSIGHT: CONCERNS FROM INSPECTORS GENERAL

                              ----------                              


                     Wednesday, September 10, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:30 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Meehan, Gowdy, 
Woodall, Massie, Meadows, Bentivolio, DeSantis, Cummings, 
Norton, Connolly, Cartwright, Duckworth, Kelly, Davis, Horsford 
and Grisham.
    Staff Present: Melissa Beaumont, Assistant Clerk; Molly 
Boyl, Deputy General Counsel and Parliamentarian; David Brewer, 
Senior Counsel; Ashley Callen, Deputy Chief Counsel for 
Investigations; Sharon Casey, Senior Assistant Clerk; Steve 
Castor, General Counsel; John Cuaderes, Deputy Staff Director; 
Jessica Donlon, Senior Counsel; Adam Fromm, Director of Member 
Services and Committee Operations; Linda Good, Chief Clerk; 
Ryan Hambleton, Senior Professional Staff Member; Mark Marin, 
Deputy Staff Director of Oversight; Ashok Pinto, Chief Counsel, 
Investigations; Andrew Rezendes, Counsel; Laura Rush, Deputy 
Chief Clerk; Jessica Seale, Digital Director; Andrew Shult, 
Deputy Digital Director; Jonathan Skladany, Deputy General 
Counsel; Peter Warren, Legislative Policy Director; Rebecca 
Watkins, Communications Director; Tamara Alexander, Minority 
Counsel; Meghan Berroya, Minority Deputy Chief Counsel; Krista 
Boyd, Minority Deputy Director of Legislation/Counsel; Aryele 
Bradford, Minority Press Secretary; Jennifer Hoffman, Minority 
Communications Director, Chris Knauer, Minority Senior 
Investigator; Juan McCullum, Minority Clerk; Dave Rapallo, 
Minority Staff Director; Ilga Semeiks, Minority GAO Detailee; 
and Mark Stephenson, Minority Director of Legislation.
    Chairman Issa. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The Oversight Committee's mission statement is that we 
exist to secure two fundamental principles. First, Americans 
have a right to know that the money Washington takes from them 
is well spent; and, second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Government Reform Committee is to protect these 
rights. Our solemn responsibility is to hold government 
accountable to taxpayers because taxpayers have a right to know 
that the money Washington takes from them is well-spent. It's 
our job to work tirelessly in partnership, citizens watchdogs 
and, yes, the IG watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is our mission statement.
    On August 5, 47 Inspectors General, two-thirds of the IG 
community, sent an unprecedented letter to Congress describing 
serious limitations on access to records that have recently 
impeded the work of the Inspectors General. Section 6(a)(1) of 
the Inspector General Act of 1978 requires agencies to provide, 
and I quote, ``full and timely access to agency records to 
their respective Inspector General.'' Anything less than full 
cooperation, of course, is unacceptable.
    These government watchdogs play a key role in improving the 
government's efficiency, honesty, and accountability. They 
conduct oversight and investigations and audits to prevent and 
detect waste, fraud, and mismanagement within government 
agencies. Their work often protects life of Federal workers and 
the American people. They help Congress shape legislation and 
target our oversight and investigative activities; but let 
there be no doubt, they are executive branch employees who, in 
fact, were created by an act of Congress and signed by a 
president so that the tools that they provide are available to 
the President of the United States to run our government 
better.
    The IGs have proven to be one of Congress's and the 
American people's best investments. In the last fiscal year the 
IG community used their 2.7 billion dollar budget to identify 
potential cost savings to taxpayers totalling about 46 billion 
dollars. That means that for every dollar in the total IG 
budget, they identified approximately $17 in savings. Access is 
key to that kind of savings.
    But the let me make it very clear, many of the 
investigations, including some you will hear today, are not 
about money. They're far more valuable. They're about liberty. 
They're about your government not trampling on your rights. So 
when agencies withhold information and their records from these 
watchdogs, it impedes their ability to conduct their work 
thoroughly, independently and most of all, timely. It runs up 
the cost to both sides of the ledger. The Inspectors General 
spend many, many, many millions of dollars simply trying to get 
access, while your government, the very same agency, spends 
millions and millions of dollars on lawyers trying to impede. 
This is one of the greatest wastes we could possibly have. When 
agencies refuse or deny IGs access to agency records, it 
undermines the intent of Congress and the IG's ability to 
effectively oversee these respective agencies.
    Today, we are going to hear from three widely respected IGs 
who have faced serious challenges from their agencies to access 
the necessary records to what they do in their work. At the 
Justice Department, the Inspector General cannot gain access to 
grand jury documents or national security-related documents 
without approval and delay from the Deputy Attorney General of 
the Federal courts. Requiring such permission compromises and 
impedes IGs' investigations.
    At the Chemical Safety Board, they have denied the EPA 
Inspector General, Mr. Elkins, who is with us today, access to 
certain documents on the basis of attorney-client privilege, 
but who is the attorney and what is the privilege? Mr. Elkins 
is, in fact, the same entity that is, in fact, the client. He 
is, in fact, part of the defined client, which of course is the 
EPA.
    Further, several offices within the EPA itself, including 
the EPA office of Homeland Security, have interfered with the 
OIG's investigations themselves. And perhaps most disturbing to 
me personally, and I spoke to the Vice President last night, 
and I believe he was equally disturbed, at the Peace Corps they 
have refused to provide the Inspector General, Ms. Buller, 
access to information related to sexual assaults on Peace Corps 
volunteers absent a memorandum of understanding.
    Let's understand, last night we honored and celebrated the 
20th anniversary of the enactment of violence against women, 
designed to do just the exact opposite, to ask women to come 
forward and report their assaults. If, in fact, the IG cannot 
oversee a possible pattern of failure to protect women, then 
are we to ask women to come forward with the record of their 
assaults.
    But in all instances, it is the committee's position that 
these agencies should and must cooperate with the Inspectors 
General's requests for information. During the 113th Congress, 
the committee has investigated several instances, including the 
ones facing these watchdogs in which agency leadership 
undermined the effectiveness of the Inspectors General. The 
committee has held several hearings on this issue and facing 
these Inspector Generals over the past year. The committee has 
also conducted a deposition of the Peace Corps general counsel 
to address the access issue at the Peace Corps. It has not been 
resolved, and quite frankly, I look forward to the departure of 
the general counsel as part of the problem.
    Neither this committee nor the IG committee should be 
wasting time and resources attempting to gain access to records 
which the IGs have not just a legal entitlement to, but a sworn 
obligation to under the IG Act.
    For nearly six years we have seen this administration make 
unprecedented efforts, it says to fight transparency and block 
investigations by journalists, Congress, but that's not what 
we're here for today. We're not here because the press wants to 
snoop. We're not here because Article 1, the Congress, is 
trying to look over the shoulder of the President and his 
administration. We're here because the more or less 12,000 men 
and women who work for these IGs and the others not here today, 
part of this President's team for efficiency, transparency, 
and, in fact, an Honorable service by all, has not been getting 
what they wanted.
    It is my intention upon the end of this hearing to write 
with my ranking member if at all possible, a letter to the 
President, urging him to use his executive order capability to 
resolve this question once and for all. Notwithstanding that, I 
want to thank our three witnesses here today, and I want to 
assure you of one thing, after you testify here today and for 
all 47 IGs who wrote, I will be looking, I know my ranking 
member will be looking, to make sure that, in fact, no 
retribution, no punishment, is allowed for your coming forward 
and expressing your concerns under your responsibility of the 
IG Act.
    With that, I would ask just one thing. We do have a 
response from the executive office of the President, the Office 
of Management and Budget, in response to Mr. Cummings and my 
letter, and I will place it into the record at this time. 
Without objection, so ordered.
    Chairman Issa. And we recognize the ranking member for his 
opening statement.
    Mr. Cummings. Thank you, Mr. Chairman. I want to thank our 
witnesses for testifying here today. I also want to thank the 
chairman for calling this hearing.
    Let me start off by saying that what the chairman said with 
regard to retribution, I agree with. You have come; you do a 
phenomenal job, a very important job, and every member of this 
committee, both sides of the aisle, if we hear about any 
repercussions from you being here, we will be on it and deal 
with it effectively and efficiently.
    Rooting out waste, fraud and abuse is a central tenet, of 
this committee and we take this mission very seriously. I'm a 
staunch defender of the IGs and the authorities.
    And, for example, in 2013, I sent a bipartisan letter to 
the President. I was joined by Chairman Issa as well as 
Representative Chaffetz and Representative Tierney, the 
chairman and ranking member of the National security 
Subcommittee. In that letter we pressed the President to 
finally nominate an Inspector General at the State Department, 
a position that had remained vacant for five years. I have also 
supported legislation to help IGs do their job more effectively 
and efficiently, such as the IG Reform Act of 2008.
    Last month after receiving the letter from 47 IGs, I co-
signed a letter with Chairman Carper and Ranking Member Coburn 
of the Homeland Security Committee and the Government Affairs 
Committee, as well as Chairman Issa. In that letter, we 
expressed our bipartisan concern to the Office of Management 
and Budget about access issues raised by three IGs testifying 
here today from the Peace Corps, the Department of Justice and 
the Environmental Protection Agency.
    When Congress passed the Inspector General Act in 1978, 
Section 6 of that legislation authorized IGs to have very broad 
access to agency records. This provision was intended to give 
IGs wide latitude to conduct their audits and investigations. 
But Congress also included certain exemptions on the 
legislation, some of which are at issue today. In addition, 
some contend that other Federal laws may conflict with this 
broad grant of authority, and that is also a concern that we 
will be discussing today.
    First we have the Peace Corps. In 2011 Congress passed and 
the President signed the Kate Puzey Volunteer Protection Act. 
This law requires the Peace Corps to establish a confidential 
system for volunteers to report sexual assault crimes. When the 
IG sought access to this data in order to prepare a report also 
mandated by Congress, the Peace Corps raised a question about 
providing the personally identifiable information of sexual 
assault victims, which was supposed to be confidential.
    On May 22, the agency and the IG signed a memorandum of 
understanding providing the IG with access to all information 
except personally identifiable information and explicit details 
of the sexual assaults. I understand the disagreement does not 
address all of the IG's access concerns, but I believe it is a 
very good start when we have two potentially conflicting 
statutes like this.
    Next the Department of Justice Inspector General has 
expressed concern that when he seeks access to sensitive law 
enforcement information, such as grand jury and wire tap 
information, he must go through a lengthy approval process at 
the highest levels of the department. The IG's testimony for 
today says the department has granted access to the records in 
every case, but he contends that the lengthy delays erodes his 
independence. According to the Department, several other 
statutes restrict the release of sensitive information, such as 
grand jury and wire tap material. So they must be carefully 
analyzed, and we have to look at that.
    My understanding is that the Department has now asked the 
Office of Legal Counsel to review the issue. I applaud the IG 
for working through this process with the agency, and I look 
forward to OLC's review.
    Finally, the Environmental Protection Agency IG has raised 
two concerns. The IG reports said that the EPA's office of 
Homeland Security has been denying the IG access to classified 
threat material and failing to recognize the IG's statutory 
authority over intrusions into EPA computer networks. 
Democratic staff has been working with both sides to mediate 
this issue, and on June 19, EPA Administrator McCarthy proposed 
a framework for better cooperation. At this point my 
understanding is that the IG still has issues with the 
proposal, so I hope we can spend some time today hearing about 
those concerns.
    Lastly, the dispute between the EPA IG and the Chemical 
Safety Board seems, at least to me, to be the most problematic. 
The IG has been trying to obtain documents from the CSB 
chairman, but the CSB still has not produced all of the 
requested documents. This week the IG's office sent a letter 
explaining that although the CSB has complied substantially 
with the request, documents still remain outstanding. I hope we 
can work with you closely on a bipartisan basis to solve this 
issue.
    Let me close by making one observation. As we have seen, 
many of these issues involve several laws that appear to 
conflict, and some have raised the possibility of legislative 
fixes. I believe this idea should be considered very carefully. 
Although I will not hesitate to pursue statutory clarification 
if necessary, the last thing the IGs need is for legislation to 
be introduced and fail, which could have the unintended effect 
of diluting their authority.
    For these reasons, Mr. Chairman, I appreciate your 
commitment to work with me and my staff in developing 
bipartisan and widely supported legislative reform proposals. 
My staff and I have devoted tremendous efforts to helping IGs 
do their work, and my goal has always been to try to solve the 
challenges constructively.
    And with that I yield back.
    Chairman Issa. I thank the ranking member. All members will 
have seven days to submit opening statements for the record.
    Chairman Issa. We now welcome our distinguished panel of 
witnesses. The Honorable Michael E. Horowitz is the Inspector 
General of the U.S. Department of Justice. The Honorable Arthur 
A. Elkins, Jr., is Inspector General of the U.S. Environmental 
Protection Agency and the Honorable Ms. Kathy A. Buller is the 
Inspector General of the Peace Corps.
    Lady and gentleman, pursuant to the committee rules, would 
you please rise to take the oath, and raise your right-hand.
    Do you solemnly swear or affirm, that the testimony you 
will give today, will be the truth, the whole truth, and 
nothing but the truth?
    Please be seated. Let the record reflect that all witnesses 
answered in the affirmative.
    Since you're all skilled professionals, and, Mr. Horowitz, 
since you're less than 24 hours from a similar event, you know 
that we'd like you to keep your opening statements to 5 
minutes, summarize any way you can, and that your entire 
opening statements will be placed in the record without 
objection.
    And with that, Mr. Horowitz, you're up.

                       WITNESS STATEMENTS

           STATEMENT OF THE HON. MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman, Congressman 
Cummings, members of the committee. Thank you for inviting me 
to testify today at this very important hearing.
    Access by Inspectors General to information and agency 
files goes to the heart of our mission to provide independent 
and nonpartisan oversight. That is why 47 Inspectors General 
signed a letter late last month to Congress expressing their 
concerns about this issue. I want to thank the members of this 
committee for their bipartisan support in response to this 
letter.
    The IG Act adopted by Congress in 1978 is crystal clear. 
Section 6(a) of the act expressly provides that Inspectors 
General must be given complete, timely, and unfiltered access 
to all agency records. However, since 2010, the FBI and some 
other department components have not read Section 6(a) of the 
act in that manner and therefore have refused our requests 
during our reviews for relevant grand jury, wire tap, and 
credit information in its files. As a result, a number of our 
reviews have been significantly impeded. In response to these 
legal objections, the Attorney General of the Department--or 
the Department Attorney General, granted us permission to 
access the records by making the finding that our reviews were 
of assistance to them. They also have stated their intention to 
do so in future audits and reviews. However, there are several 
significant concerns with this process.
    First and foremost, the process is inconsistent with the 
clear mandate of Section 6(a) of the IG Act. The Attorney 
General should not have to order Department components to 
provide us with access to records that Congress has made clear 
we have a right to review.
    Second, requiring the Inspector General to obtain 
permission from department leadership seriously compromises our 
independence. The OIG should be deciding which documents it 
needs access to, not the leadership of the agency that is being 
overseen.
    Third, while current Department leadership has supported 
our ability to access records, agency leadership changes over 
time, and our access to records should not turn on the views of 
the Department's leadership.
    Further, we understand that other Department components 
that exercise oversight over Department programs and personnel, 
such as the Department's office of professional responsibility, 
continue to be given access to these same materials without 
objection. This disparate treatment is unjustifiable and 
results in the Department being less willing to provide 
materials to the OIG, presumably because the OIG is statutorily 
independent, while OPR is not. This disparate treatment again 
highlights OPR's lack of independence from the Department's 
leadership, which can only be addressed by granting the 
statutorily independent OIG with jurisdiction to investigate 
all alleged misconduct at the Department.
    Indeed, the independent, nonpartisan project on government 
oversight made the same recommendation in a report issued in 
March of this year, and bipartisan legislation introduced in 
the Senate would do just that.
    This past May, the department's leadership asked the Office 
of Legal Counsel to issue an opinion addressing the legal 
objections raised by the FBI and other Department components. 
It is imperative that the OLC issue its decision promptly 
because the existing practice at the Department seriously 
impairs our independence every day we do our work.
    Moreover, in the absence of a resolution, our struggle to 
access information in a timely manner continues to seriously 
delay our work. It also has a substantial impact on the morale 
of the OIG's auditors, analysts, agents, and lawyers, who work 
extraordinarily hard every day. Far too often they face 
challenges getting timely access to information, including even 
with routine requests. For example, in two ongoing audits, we 
had trouble getting organizational charts in a timely manner. 
We remain hopeful that OLC will issue an opinion promptly that 
concludes the OIG is entitled to independent access to the 
records and information pursuant to the IG Act.
    However, should an OLC opinion conclude otherwise and 
interpret the IG Act in a manner that results in limits on our 
ability to access information, we will request a prompt 
legislative remedy.
    For the past 25 years my office has demonstrated that 
effective and independent oversight saves taxpayers money and 
improves the Department's operations. Actions that limit, 
condition, or delay access to information have substantial 
consequences for our work and lead to incomplete, inaccurate, 
or significantly delayed findings or recommendations. I cannot 
emphasize enough how critical it is to get these pending access 
issues resolved promptly.
    Hopefully, OLC will issue shortly, an opinion finding that 
6(a) of the IG Act means what it says, namely that the OIG is 
entitled to have complete, timely, and independent access to 
information in our agency's files.
    This concludes my prepared statement. I'd be pleased to 
answer any questions you may have.
    Chairman Issa. Thank you, and you'll yield back the one 
second.
    Mr. Horowitz. I will yield back the one second.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Horowitz follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Issa. Mr. Elkins.


          STATEMENT OF THE HON. ARTHUR A. ELKINS, JR.

    Mr. Elkins. Good morning, Chairman Issa, Ranking Member 
Cummings, and members of the committee.
    I am Arthur Elkins, Inspector General for the Environmental 
Protection Agency and the Chemical Safety and Hazard 
Investigation Board. Thank you for inviting me to appear before 
you today.
    I would like to take this opportunity to publicly commend 
the Office of Inspector General staff across the Federal 
Government who work hard each day to carry out our important 
mission. As the committee is aware, for more than a year this 
OIG was confronted with a denial of access by the CSB. The 
CSB's leadership asserted that the denial was based on 
attorney-client privilege. We countered that such denial 
violated Section 6(a)(1) of the Inspector General Act.
    With that impairment of my office's ability to provide 
oversight of the CSB continued, we resorted to the rarely 
invoked 7-day letter. This committee held a hearing on the 7-
day letter and related issues on June 19 at which you stated 
the CSB to turn over the documents to the OIG within a week. 
The CSB since has produced several sets of documents to the 
OIG. We have determined that the CSB has substantially but not 
fully complied with our document request. However, the evidence 
we have gathered demonstrates that there are additional 
documents within the scope of our request the CSB officials 
have not provided.
    In addition to the CSB matter, the EPA office of Homeland 
Security continues to impede the investigations of this OIG. We 
provided testimony on that subject before this committee on May 
7. While there are multiple facets to this problem, the crux is 
this. The EPA asserts a belief that there is a category of 
activity defined as, ``intelligence'' to which the OIG may have 
access only if the EPA determines the OIG access is permitted. 
This impairment by the EPA was ongoing when I arrived four 
years ago, and it is still not resolved.
    Now, I would like to discuss how well the IG Act is serving 
the taxpayers of this country in accomplishing goals that 
Congress set in passing it more than 35 years ago. On August 5, 
I joined with 46 other IGs in sending a letter to this 
committee, as well as other congressional members, discussing 
the troubling pushback many of us have been experiencing from 
our respective agencies when we seek mandated access to 
employees and records. We asked Congress for a strong 
reaffirmation of the original, and we believe, still existing 
intent of the IG Act, that OIGs have unfettered access to all 
agency information to assist us in obtaining prompt and 
complete agency cooperation.
    Mr. Chairman, questions about whether the IG Act is 
accomplishing Congress's goals and whether the act needs 
strengthening or clarification are not hypothetical to me. They 
are questions with real-world impact on my ability to carry out 
my mandated functions. You might think, therefore, that I would 
say without reservation that the IG Act requires some 
enhancements on access and agency cooperation.
    However, I want all of us, IGs and Congress included, to be 
very careful about what I am saying and what I am not saying on 
this issue. The act as written is quite strong and quite clear. 
It provides access to all agency information and all agency 
employees. There are no exceptions, not for material that an 
agency asserts cannot be further released outside of the OIG 
once the OIG does receive it, and not for some piece of agency 
activity that might happen to involve classified information.
    No courts, no congressional committees, and no opinions 
from the Department of Justice's Office of Legal Counsel have 
given any cause for concern that the requirement for access to 
all information means anything other than all. Any attempt to 
clarify or strengthen that authority could only suggest that it 
is not already strong and fully encompassing.
    The IG Act hinges on the cooperation of an agency with its 
IG. If there is not prompt and complete cooperation, the work 
of the OIG is stifled. In this regard, the IG Act can be 
compared to a house of cards. If you pull out the agency 
cooperation card, the entire act collapses. I therefore urge 
this committee to look at enforcement mechanisms for the access 
and cooperation already required. The IG Act is fine as 
written. The agency's ability to ignore the act without 
consequence is the problem.
    This OIG will be happy to work with your staff in concert 
with the Council of Inspector Generals on integrity and 
efficiency on solutions to address our access concerns. I 
believe that Congress can send a strong and needed message 
through legislative enhancements and other means that such 
impairment will not be tolerated.
    Mr. Chairman, this concludes my prepared statement, and I 
will be pleased to answer any questions you or the committee 
may have.
    Chairman Issa. Thank you. And you yield back four seconds.
    Mr. Elkins. Yes, I will. Thank you.
    [Prepared statement of Mr. Elkins follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Issa. Ms. Buller.

                  STATEMENT OF KATHY A. BULLER

    Ms. Buller. Chairman Issa, Ranking Member Cummings, 
distinguished members of the committee, thank you for inviting 
me to appear before you today and allowing me to summarize my 
prepared statement.
    You have asked me to testify about my office's difficulty 
in obtaining access to agency documents. I testified about this 
issue before your committee on January 15th, and while progress 
has been made, thanks in part to your efforts, some challenges 
remain.
    Our access issues stem from the Peace Corps' interpretation 
of the Kate Puzey Volunteer Protection Act of 2011 which 
Congress enacted after serious reports that the agency failed 
to adequately respond to volunteer victims of sexual assault. 
To enhance the Peace Corps' response to sexual assaults, the 
Kate Puzey Act mandates the creation of a restricted reporting 
mechanism so that volunteers may confidentially disclose the 
details of their assault and receive the services they need 
without dissemination of their personally identifying 
information.
    Unfortunately, Peace Corps's general counsel has written a 
legal opinion concluding the Kate Puzey Act overrides the IG 
Act, causing the agency to establish policies and procedures 
that deny OIG access to information. In the case of restricted 
reports, the agency argues the Kate Puzey Act prohibits the 
agency from disclosing to OIG any details of a sexual assault 
or the victim's PII. However, the Kate Puzey Act authorizes 
disclosure when required by law, and the law mandates an 
extensive oversight role to my office.
    In May my office entered into a formal agreement with the 
agency to obtain some information from restricted reports. The 
agreement can be terminated by either party at any time, but we 
signed it so that we could get some information while 
continuing to seek agency or congressional action. Although the 
agreement improves our access, I am concerned about my office 
having to enter into an agreement to get information we are 
entitled to by law and that we need to do our jobs.
    I am also concerned that the agency's legal opinion 
authorizing it to withhold information from the OIG remains in 
place. This legal opinion sets a dangerous precedent whereby an 
agency may interpret a law as overriding the IG Act, forcing 
its IGs to spend its limited resources and time wrangling with 
the agency to obtain information.
    Many have asked why we need full access to restricted 
reports. The answer is simple. Without full access, we cannot 
properly inform the agency or Congress whether the agency is 
complying with the Kate Puzey Act and whether the agency's 
response to sexual assaults is getting better or worse. 
Furthermore, the Kate Puzey Act mandates that my office conduct 
a case review of a statistically significant number of cases. 
Without full access to information, it's very difficult for us 
to complete this review and ensure that volunteers are 
receiving the services that they need.
    On August 5th, 47 IGs signed a letter to Congress 
expressing concern over our access issues, recognizing the 
implication of agencies refusing, restricting, or delaying IG 
access to agency documents. In response to inquiries about the 
letter, Peace Corps told the Washington Post it is, ``committed 
to working with the Inspector General to ensure rigorous 
oversight while protecting the confidentiality and privacy of 
volunteers who are sexually assaulted,'' suggesting that 
privacy and oversight are mutually exclusive. They are not.
    My office is bound by the same confidentiality rules as the 
agency. It is trained and experienced in handling sensitive 
information, and there is no cited record of my office ever 
mishandling such information. The agency has also suggested 
that fewer volunteers would report sexual assaults if OIG had 
access to the information, but when pressed for a factual basis 
for this assertion, the agency had none.
    As the Daily Beast reported, ``it's hard to imagine a case 
where volunteers declined to report sexual assaults base the 
agency's internal watchdog will be provided information to 
determine there is no negligence or wrongdoing.'' The agency 
argues its policies and procedures are victim centric, but what 
could be more victim centric than providing independent 
oversight of victims' care.
    We ask that Congress reaffirm what is said in the IG Act. 
The IG Act we also believe is very plain on its face, and the 
legislative history also strengthens that intent, but there are 
individuals like our general counsel, who have taken it upon 
themselves to interpret another piece of legislation to 
override that act. We request that Congress and this committee 
take a look at reaffirming what the IG Act says and make sure 
everybody is on the same page.
    I thank you for asking me to testify before you, and I am 
prepared to answer any questions.
    Chairman Issa. Thank you. And you yielded back 12 seconds.
    [Prepared statement of Ms. Buller follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Issa. So, I have never had a more professional 
panel. I commend you all.
    We do a lot of hearings here that are partisan. As you 
know, this isn't one of them. So one of the challenges here is 
asking the first and most difficult question, which is from 
each of your experiences, when did this begin, and what do you 
think the source is? And I just, to the extent that you can say 
time and date, and if you will, accountable individual, who you 
think is the decisionmaker, or the impediment, I'd like that 
answer as succinctly as possible. Ms. Buller?
    Ms. Buller. In my case I think it's very easy to pinpoint 
the time and the person. The passage of the Kate Puzey Act and 
mandating the restricted reporting I think was the impetus. The 
person is the general counsel. Basically he has taken the 
opportunity to interpret the Kate Puzey Act to impede our 
access.
    Chairman Issa. Mr. Elkins?
    Mr. Elkins. In my case, you know, I have two agencies that 
I oversee, the CSB and the Environmental Protection Agency. In 
both cases I have to say that issues relative to access starts 
at the top. With a clear message from the top that access will 
be granted, it will be granted. To the extent that there is a 
muddled message or the message is not clear, you end up in 
situations that we have here today.
    On the CSB side of the House, the issues started back in 
2010, 2011. On the EPA side of the House, some of the issues 
that we're dealing with today actually started before I even 
came on board. So this has been an ongoing sort of matter.
    But to answer your question directly, it starts at the top. 
Clear message from the top, what the expectations are, that's 
the way the rest of the troops will march. Thank you.
    Chairman Issa. Mr. Horowitz?
    Mr. Horowitz. Our issues started in 2010. It has continued. 
It started in 2010 with the FBI raising objections. Other 
components have now joined in, and there's a long list of them 
that have said me too in terms of Section 6(a) of the act 
doesn't mean what it says.
    Chairman Issa. So what you're saying is, is it began with 
the FBI thinking they could beat your oversight, but like any 
infection, particularly a popular one, you're being shut out 
systematically?
    Mr. Horowitz. Correct. If there is a way to do that, that's 
what happens.
    Chairman Issa. Mr. Horowitz, yesterday you and I were 
together over in Judiciary, along with a number of the members, 
and I think you testified that on six occasions the Attorney 
General or the Deputy Attorney General has intervened when 
you've been denied and ultimately allowed you to get some of 
the information. Is that correct?
    Mr. Horowitz. That's correct. Approximately six.
    Chairman Issa. Okay, so in your case it's delay and 
impeding and, in fact, some of the benefits of an expedient 
investigation more than outright denial; is that correct?
    Mr. Horowitz. That's correct. It also compromises our 
independence.
    Chairman Issa. Mr. Elkins, in your case you continue, as I 
understand, in spite of the ranking member and his staff's 
efforts, to not get information, and that is a decision being 
made by the agency head; is that right?
    Mr. Elkins. Well, I can't say emphatically that it's coming 
from the agency head.
    Chairman Issa. I should say the agency head has not 
intervened, and in some of these letters, ask her to do so. 
That's what I was saying.
    Mr. Elkins. And I think that's a fair characterization.
    Chairman Issa. But ultimately that's the person who could 
intervene?
    Mr. Elkins. Absolutely. Absolutely.
    Chairman Issa. Ms. Buller, in your case you site the 
general counsel, but the general counsel is a referral point. 
There is an agency head that also has not intervened?
    Ms. Buller. Yes.
    Chairman Issa. And I think if I can take Mr. Elkins and Ms. 
Buller and bring your two statements together, which I think 
are important for Mr. Cummings and myself, both, Mr. Elkins you 
cautioned us not to attempt to clarify if you will and maybe 
come up short and diminish what already is the law, while, Ms. 
Buller, you clearly said this review, which is also going on at 
Justice, begs the whole question of is 6(a), does it 
notwithstanding other laws, mean what it says it means?
    Now, Mr. Elkins, I'm coming back to you for that reason. If 
either through executive action of the office of the President 
or through congressional action, if we say, because we believe 
that notwithstanding other laws, 6(a) in the IG Act means what 
it says it means, does that both meet your test of not writing 
new law on top of already good law, but at the same time 
clarify the question so that there not be endless review by 
agency heads, general counsels, and referrals to legal review?
    Mr. Elkins. Yes. I think that would be quite helpful. That 
message clearly without any wiggle room in it, coming from the 
President, would help, absolutely.
    Chairman Issa. Thank you and with that, I have used 12 
seconds. I yield to the ranking member.
    Mr. Cummings. I want to go back to what the chairman was 
just asking.
    So, Ms. Buller, as I have listened to you and I have read 
your testimony, and I have thought about the issue here, the 
personally identifiable information, it just seems like we 
should be able to work that out some kind of way. I mean, have 
you gotten any further than the memorandum of understanding?
    Ms. Buller. We have the memorandum of understanding in 
place, and we are hopeful that we can continue to do our work 
with that memorandum of understanding, but there is, with the 
legal opinion that's still in place, if there's another dispute 
that comes up regarding what PII is or what explicit details of 
the sexual assault is, we're going to be right back where we 
started, going back and forth with the general counsel's office 
trying to figure that out.
    Mr. Cummings. Mr. Elkins, during your tenure as an 
Inspector General, you worked with the EPA to identify ways the 
agency can improve its management. For example, your office 
released three reports in the past month that identify ways the 
EPA can save money by improving its contracting processes and 
oversight; is that right?
    Mr. Elkins. That is correct.
    Mr. Cummings. Your recommendations have led to many 
successful reforms. For example, on July 22, 2014, your office 
reported that the EPA implemented corrective action on all of 
your recommendations regarding the EPA's nationwide monitoring 
system that protects us from exposure to radiation; is that 
right?
    Mr. Elkins. That's correct, sir.
    Mr. Cummings. Congress has also charged you with overseeing 
the Chemical Safety Board which I want to ask you about. You 
discussed in your testimony a long-term dispute with the CSB. 
You also identified before the committee in June, testified 
before the committee in June, about that issue. Your office is 
investigating the use of personal email accounts by senior CSB 
officials to conduct official business; is that right?
    Mr. Elkins. That is correct, sir.
    Mr. Cummings. On September 5, 2013, you sent a 7-day letter 
to the CSB seeking email records but CSB refused to provide. 
This is the only 7-day letter you have issued in your tenure as 
Inspector General; is that right?
    Mr. Elkins. That's correct.
    Mr. Cummings. How long have you been Inspector General?
    Mr. Elkins. Over four years now.
    Mr. Cummings. After the committee's hearing, CSB provided 
some documents, but on July 8, however, you informed the 
committee that CSB still had not fully complied with your 
request. You said the documents they provided were not fully 
responsive. The attachments were not provided, and some 
documents were redacted; is that right?
    Mr. Elkins. That is correct.
    Mr. Cummings. More recently CSB has provided additional 
documents, including unredacted copies, and on September 8, 
2014, you sent a letter to the committee saying, ``OIG 
concludes that the CSB has substantially complied with our 
document request. However, the evidence we have gathered 
demonstrates that there are additional documents within the 
scope of our request which CSB officials have not provided to 
the OIG.'' So it sounds like CSB improved its cooperation 
following the committee's hearing in June, but even that was 
like pulling teeth. Is that a fair statement?
    Mr. Elkins. That's a very fair statement.
    Mr. Cummings. Well, I got to tell you, I think that this is 
totally unacceptable. Can you tell us now specifically how you 
know the CSB is withholding documents?
    Mr. Elkins. Well, I'd like to think I have got a crack team 
of investigators that ask good questions. And, you know, we 
track the documents. We track the questions, and it's really 
just matching it up. We ask certain questions. We take a look 
to see if we have got a response, and if the response is not 
there, there's a void. That's pretty much what we have got.
    Mr. Cummings. Can you identify the categories of documents 
that you believe are being withheld for the record so that we 
can follow-up directly?
    Mr. Elkins. Yeah, I can give you somewhat of a 
characterization. For instance, there was you know, of course 
the instance of using you know, email that's not government 
email to conduct agency business. At one point in the process, 
it was conveyed to us that there was a directive to CSB staff 
not to do that, and then subsequent, we found emails that 
suggested that after that date, it was still going on. So in 
our mind, that suggests that you know, there is a disconnect 
there, so that's one example.
    Mr. Cummings. Last question. In the letter you sent on 
Tuesday, you said you will be issuing a report of investigation 
in the near future. What will the scope of that report be, and 
when do you expect to issue it?
    Mr. Elkins. Well, it will be a compilation of what we have 
determined, you know, based on the facts of the case. At this 
point, it appears to us that the CSB leadership was using means 
other than Federal communication means to conduct agency 
business, so that's where the report is likely to head.
    In terms of when that report is going to be issued, I can't 
give you an exact date, but I would say very shortly, maybe 
within the next 90 days or so.
    Mr. Cummings. Thank you very much, and we will follow-up.
    Chairman Issa. Will the ranking member yield?
    Mr. Cummings. Yes.
    Chairman Issa. To clarify, Ms. Buller, did you ever ask on 
this personally identifiable information and the details of 
these sexual assaults, did you ever ask for in camera review 
for your people to look at the documents without receiving 
them?
    Ms. Buller. No. That wouldn't have been permitted under the 
general counsel's legal opinion.
    Chairman Issa. The question is did you ask?
    Ms. Buller. No.
    Chairman Issa. Did you attempt to have something where you 
would respect the fact that you wouldn't take possession but 
you at least would review them.
    Ms. Buller. No, we did not.
    Mr. Cummings. Just one last question to follow-up.
    Chairman Issa. Sure.
    Mr. Cummings. You know, as I listen to your testimony, one 
of the key--when I think about the conflict, and you said that 
your agency has been used to handling very sensitive 
information and keeping it confidential. I'm sure you made 
those same arguments to the Peace Corps?
    Ms. Buller. Yes.
    Mr. Cummings. And what was the response? I mean, because we 
have got government, public servants who want to do the right 
thing, and the last thing your agency would be doing would be 
going against yourself by revealing information identifying 
somebody who may have been sexually assaulted. So, I'm just 
wondering what happened there? Do you follow me? Is it that 
they don't--do you think there's a distrust or----
    Ms. Buller. The way that the Kate Puzey Act is drafted, 
there are two exceptions on the disclosure. One is for one of 
the exceptions that is enumerated, and the other is that if a 
person files a restricted report, it won't automatically 
trigger an investigative process.
    Our general counsel basically interpreted the receipt by my 
office of any information from a restricted report as doing 
that, automatically triggering an investigative process, even 
though we assured him that we are required to follow the law, 
that if we got any restricted reported information, we would 
not use it to trigger an investigation. It didn't seem to make 
an impact on him, and he is the only person who has concluded 
that the two laws conflict. When you read the two laws, there's 
a way to interpret them that they don't.
    Mr. Cummings. Very well. Thank you very much.
    Chairman Issa. Thank you.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    And thank you for holding this hearing, and I appreciate 
the Inspector Generals testifying.
    I guess with being the senior member of the committee and 
having gone through almost all, half a dozen or so chairman and 
hundreds of members who have been on the panel, you get a 
little bit of institutional insight. I have never seen an 
instance in my 21-plus years of 47 Inspector Generals coming 
together and saying that their oversight was being obstructed.
    Mr. Horowitz, do you know of any instance similar to this?
    Mr. Horowitz. I don't.
    Mr. Mica. Mr. Elkins?
    Mr. Elkins. This is the first to my recollection.
    Mr. Mica. Ms. Buller?
    Ms. Buller. I don't recall any either.
    Mr. Mica. Each of the instances which you've come here to 
cite before us have different parameters. Some of them, there 
could be questions, and I have seen some of your 
recommendations for possible changes in legislation, and that 
would be one way to resolve some of the issues.
    I think, Mr. Horowitz, you have some recommendations about 
some exemptions that are currently allowed that should be 
excluded. I think you, Ms. Buller. Is that correct?
    [Nonverbal response.]
    Mr. Mica. Just answer yes, Ms. Buller.
    Ms. Buller. Yes.
    Mr. Mica. Mr. Elkins, with the EPA, it appears that the 
actions taken by EPA in really ignoring you and allowing 
whistleblowers and others to be intimidated, this has 
undermined your position as Inspector General to conduct your 
legitimate investigative oversight responsibilities. Would that 
be a fair statement?
    Mr. Elkins. Yeah, that would be a fair statement.
    Mr. Mica. Uh-huh. The other thing that would concern me is 
using some language or exceptions that are in the law and the 
case of Justice and the Peace Corps to obstruct an 
investigation or even worse, to cover up, particularly 
concerned about the sexual abuse instances.
    Now, some of these cases the staff have told me it may be 
like Peace Corps worker on Peace Corps worker or some locals on 
Peace Corps volunteers; is that the case?
    Ms. Buller. Yes.
    Mr. Mica. And again, it appears that it is sort of a 
blatant coverup of sexual abuse cases that some might embarrass 
the agency. I guess you expose yourself when you send people to 
foreign lands or on any mission to locals or foreign nationals 
taking advantage of American personnel.
    How prevalent is the case of problems with Peace Corps 
workers being involved in these instances?
    Ms. Buller. Usually it's a host country national involved 
in the assaults. From what we gathered, the information we 
gathered, it's usually volunteer on volunteer or staff on 
volunteer in about 4 percent of the cases.
    Mr. Mica. In how many?
    Ms. Buller. About 4 percent of the cases.
    Mr. Mica. Four percent. Not huge, but it's very 
embarrassing, I would imagine, to the agency.
    And you know, again, I think we have a particular position 
of responsibility to deal with that kind of action, and also I 
think you should have that authority to uncover again what's 
going on and expose it.
    A couple of questions because the Inspector Generals have 
been under attack for a number of years now. Several ways of 
attacking, one, get rid of them. We went through that in the 
beginning, and I remember Gerald Walpin, and he was removed. I 
think the committee let it be known that that was not going to 
be tolerated, although they did get away with that particular 
instance.
    Then not appointing Attorney Generals, I'm told there are 
13 vacancies, 7 Presidentially appointed, about 15, 20 percent 
of the Inspector General positions are vacant; is that about 
right, Mr. Horowitz?
    Mr. Horowitz. I think that's right.
    Mr. Mica. You think. Mr. Elkins?
    Mr. Elkins. I don't have the statistics.
    Mr. Mica. You're not sure. Okay.
    Ms. Buller. It sounds right.
    Mr. Mica. Well, again these are the numbers that I have. 
You don't appoint them. You try to get rid of them, and then 
you don't cooperate with them and obstruct them. Those are all 
very serious problems.
    I appreciate, Mr. Chairman, your bringing this matter to 
the attention of the committee.
    Chairman Issa. And I thank you, Mr. Mica.
    Mr. Mica. I will have further questions later on. Thank 
you.
    Chairman Issa. And the gentleman yields back.
    We now go to Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I find myself in firm agreement with yourself and with the 
ranking member, your opening statements.
    Ms. Buller, in my other committee, in the House Foreign 
Affairs Committee, we actually, Judge Poe and I had some 
legislation dealing with the Peace Corps and the whole issue of 
sexual assaults and how best to handle that. There were a 
series of investigations and investigative stories really that 
were highlighted how poorly historically the Peace Corps had 
heretofore frankly managed cases of sexual assault among 
volunteers.
    We introduced legislation to try to address that and so I'm 
particularly concerned to find that today on the subject at the 
Peace Corps, there isn't full cooperation with your office. So 
that's the context in which I look at particularly the Peace 
Corps issue and the role of the IG.
    In January you testified before this committee and raised 
concerns about access to Peace Corps information. Is that 
correct?
    Ms. Buller. Yes.
    Mr. Connolly. And what was the nature of that testimony?
    Ms. Buller. It was the same issue----
    Mr. Connolly. Could you speak into the microphone? Thanks 
so much.
    Ms. Buller. It was the same issue that I am testifying 
about today. It's the lack of access to restricted reported 
information.
    Mr. Connolly. Specifically in 2011, we passed the Kate 
Puzey Volunteer Protection Act, to which I just referred, 
requiring the Peace Corps to establish a restricted reporting 
system giving volunteers the option to report sexual assaults 
on a confidential basis.
    Under the Puzey Act, the Peace Corps IG is required to 
conduct a case review of a statistically significant of sexual 
assault cases to evaluate the effectiveness of that policy and 
to provide a report to Congress; is that true?
    Ms. Buller. Yes.
    Mr. Connolly. Due to the Peace Corps' interpretation of 
that act, the agency, however, withheld from the IG certain 
personal information about victims as well as sexually explicit 
details about sexual crimes; is that correct?
    Ms. Buller. Yes.
    Mr. Connolly. On May 22, you and the agency signed a 
memorandum of understanding. Under that agreement, the agency 
agreed to provide you with access to all information related to 
restricted reports other than clearly defined personally 
identifiable information, and explicit details of sexual 
assaults; is that correct?
    Ms. Buller. Yes.
    Mr. Connolly. Since that MOU has been in effect, has your 
office requested any sexual assault case information under the 
MOU from the Peace Corps agency?
    Ms. Buller. We have requested crime incident reports for a 
program evaluation that we were going to do.
    Mr. Connolly. Did you say five?
    Ms. Buller. No. Two. Well, we had one program evaluation, 
and we requested all of the crime incident reports including 
restricted reports for that country before we went into 
evaluation. There were two reports. We did get both reports 
with the redactions.
    Mr. Connolly. With the appropriate redactions?
    Ms. Buller. Yes.
    Mr. Connolly. From your point of view?
    Ms. Buller. According to the MOU, yes.
    Mr. Connolly. Right. So since the MOU has been put into 
effect, you have had requests, and you have found full 
compliance on behalf of the agency?
    Ms. Buller. Yes.
    Mr. Connolly. Is it your expectation that the case 
information that you did receive is useful to the work you're 
undertaking?
    Ms. Buller. It's useful to the particular program 
evaluation we're doing at this particular point in time. The 
problem that we have is when we are going to do our case review 
for the Puzey-mandated work, it requires a statistic sampling 
to do that, and the Peace Corps has no case management system, 
so that everything is compiled in one place. We have records in 
medical. We have records in the victim advocate office. We have 
records all over the place, and we don't have any way to track 
how a volunteer is treated after they've been assaulted because 
there's no case management system.
    Mr. Connolly. Even now?
    Ms. Buller. Even now, yes.
    Mr. Connolly. And would that case management rubric also 
include legal actions? So for example, if somebody's been 
sexually assaulted, presumably there's a legal case pending in 
the host country?
    Ms. Buller. If there is, it should be included in the 
records, yes.
    Mr. Connolly. But it's part of the case management problem, 
I assume, that's also somewhere else?
    Ms. Buller. If the case was actually taken into court it 
would no longer be a restricted report, so we should have 
access to that information anyway.
    Mr. Connolly. And do you?
    Ms. Buller. Yes, we do have access to non-restricted 
reports. The problem is the default position for Peace Corps is 
every report of sexual assault that's filed is automatically 
restricted until a volunteer determines to make it otherwise, 
so the universe of restricted reports is quite large.
    Mr. Connolly. Thank you.
    Mr. Chairman, I just want to end by saying this is a 
particularly troubling case. Since Congress on a bipartisan 
basis actually addressed this topic, the Peace Corps and the 
incidence and management of sexual assaults on volunteers 
abroad, and to find three years after passing that act that 
we're still finding problems internally with the Peace Corps 
that directly affect the victims because their cases aren't 
being managed efficiently and properly and sympathetically, and 
the IG has not had until the MOU.
    Full cooperation from the agency is troubling indeed, and 
to me circumvents the letter as well as the spirit of the law 
Congress passed to try to address this very sensitive but real 
issue affecting our Peace Corps volunteers.
    Thank you, Mr. Chairman.
    Mr. Walberg. [Presiding.] I appreciate your comments.
    I now turn and recognize the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. I thank the chairman.
    And thank you, the three of you, for being here. You play a 
vital role in the checks and balances and just good government, 
and I thank you for your time and your dedication for you and 
your staff.
    I'd ask unanimous consent to enter into the record the 
letter dated August 5, 2014. This is a letter to Chairman Issa, 
Ranking Member Cummings, and Senators Carper and Coburn from 
the 47 IGs.
    Mr. Walberg. Hearing no objection, it will be entered.
    Mr. Chaffetz. I want to read just three sentences from this 
letter. The undersigned Federal inspectors general write 
regarding the serious limitations on access to records that 
have recently impeded the work of inspectors general at the 
Peace Corps, the Environmental Protection Agency, and the 
Department of Justice.
    On page 2, last paragraph, ``Moreover, the issues facing 
the DOJ OIG, the EPA OIG, and the Peace Corps OIG are not 
unique. Other inspectors general have from time to time faced 
similar obstacles in their work, whether on a claim that some 
other law or principle trumps the clear mandate of the IG Act 
or by the agency's imposition of unnecessarily burdensome 
administrative conditions on access.''
    It is extraordinary that 47 inspectors general have issued 
this letter expressing this concern. But I'd also like to ask 
unanimous consent to enter into the record a letter from the 
Director of the Office of Management and Budget dated September 
9, 2014.
    Mr. Walberg. Without objection, it will be entered.
    Mr. Chaffetz. Let me read a sentence here from that 
response from the Director of the OMB, and then I'd like each 
of you to please respond to it, because the administration 
doesn't seem to think there's a problem. In this letter, 
paragraph three, the last sentence says, ``Overall, the numbers 
reported by the IGs demonstrate that Federal departments and 
agencies in this administration value the work of IG offices 
and are almost uniformly successful in getting them the 
information they need to perform their responsibilities.''
    This letter, if you were to read this letter, the Office of 
Management and Budget issuing a letter a full month after the 
47 IGs, they don't think there's a problem. How do you respond 
to that sentence? We'll start with Mr. Horowitz.
    Mr. Horowitz. I can only speak from experience and what 
I've heard from other IGs, which is we have faced roadblocks in 
several of our reviews. Untimely access, where we have gotten 
it, it has taken a fair amount of time. I think the other IGs 
have had their experiences. And I know from conversations with 
fellow IGs, while they haven't had lawyers come forward and 
say, we can't legally give it to you, they've had issues with 
getting materials in a timely manner. That is a very 
significant issue for us.
    Mr. Chaffetz. So when it says ``almost uniformly 
successful,'' how would you characterize what you're able to 
access and get right now, particularly from the FBI?
    Mr. Horowitz. It has been an extraordinarily difficult 
issue for us for now several years to get prompt, timely access 
to materials.
    Mr. Chaffetz. Mr. Elkins.
    Mr. Elkins. I think there is a disconnect, and I think that 
statement that you just read capsulizes the disconnect. On the 
one hand, I think what we have seen here is that we hear from 
time to time that, well, there is substantial cooperation with 
the OIG, I mean 80 percent, 90 percent of the time there's no 
problems, you get what you ask for. But that assumes that the 
other 10 to 20 percent of the time that we're not getting what 
we ask for is okay, and that suggests it's a moving target, and 
that's a very slippery slope.
    And that is exactly, I think, why we're here today and 
talking about these issues, because there is this assumption 
that most of the time we cooperate, and that's where the focus 
is at. But the real issue here is what about that 10 percent of 
the time that there is no cooperation, and that seems to just 
keep jumping around and jumping around. That's the problem, and 
I think that message says that it's a broad problem with OMB 
and a lot of agencies.
    Mr. Chaffetz. Thank you, Mr. Elkins.
    Ms. Buller.
    Ms. Buller. I agree with my esteemed colleague. From our 
perspective, we've had an agency issue opinions or issue 
policies and procedures specifically stating that we can't have 
access to something, so it's very difficult for me to 
understand how it's not a problem. And I think the fact that 47 
other IGs have at one time or another, maybe not all the time, 
but one time or another had problems should be an indicator 
that there is a problem.
    Mr. Chaffetz. Well, thank you. Again, I appreciate the 
great work that we do and look forward to hearing from you 
further.
    Yield back.
    Mr. Walberg. I thank the gentleman.
    And I recognize the gentleman from Pennsylvania, Mr. 
Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And thank you for 
the inspectors general appearing here today.
    As this committee has previously highlighted, the offices 
of inspectors general are essential to the efficiency of our 
Federal Government. They help hold agencies accountable, 
identifying misconduct in programs and by personnel. They can 
highlight the holy trinity of waste, fraud, and abuse, 
guaranteeing that the American taxpayers get the most bang for 
their buck.
    The position of IG is a difficult position to hold, and IGs 
are tasked with investigating alleged abuses among those with 
whom they work. Now, of course, however, a balance has to be 
struck between confidentiality and privacy rights of victims, 
as well as whistleblowers, and the needs of the inspectors 
general.
    Ms. Buller, I listened to your testimony closely and also 
your questioning by Representative Connolly. As you noted in 
your written testimony, the OIG recently reached this 
memorandum of understanding with the Peace Corps on how best to 
comply with the Kate Puzey Peace Corps Volunteer Protection 
Act. Obviously, many victims of sexual abuse and assault choose 
to report that conduct anonymously out of fear of retribution 
and for their safety in general.
    And there's an irony, isn't there, in that the Kate Puzey 
Act was intended to provide tighter oversight to make sure a 
complainant's anonymity is protected. In fact, Kate Puzey 
herself was murdered by her attacker when the Peace Corps 
mishandled her complaint and her identity got out, and I think 
Mr. Connolly has made that point. But there's this irony that 
the Kate Puzey Act was intended to tighten oversight of the 
confidentiality and at the same time now we hear that the Peace 
Corps is saying that because of the need for confidentiality 
they don't want to cooperate as much with the OIG. And I see 
that.
    And I think probably a good thing to do this morning, Ms. 
Buller, would be for you to elaborate. You touched on it 
briefly in your testimony about how professional your staff is 
and how careful you are with anonymity. Will you elaborate 
further and tell us more about systems and procedures in place 
to protect anonymity?
    Ms. Buller. Sure. All of my staff is required, as is Peace 
Corps staff, to comply with all of the laws that protect 
personal identifying information, such as the Privacy Act, 
HIPAA, things of that nature. We are all required by law to 
comply with those, the same way that Peace Corps staff is.
    Furthermore, my investigators are trained investigators. We 
must comply with all of the guidelines from the Attorney 
General. We have full law enforcement authority. We participate 
like any other law enforcement organization. And my evaluators, 
when they go out to a post, they go to the volunteer site and 
sit and interview individual volunteers, and they tell them 
that they will not use their name because they're trying to 
find out how well Peace Corps is actually supporting those 
volunteers.
    So they do not use their names. They aggregate information 
and bring it back so that we can issue a report to the agency 
to tell them that you have these problems in this area, that 
volunteers don't feel supported in another area, things of that 
nature. We are a very professional staff, and we do comply with 
all of the federally mandated laws.
    Mr. Cartwright. I thank you for that. And you did say in 
your testimony there's never been an instance of the Office of 
Attorney General being implicated in an improper disclosure of 
an identity. Is that correct?
    Ms. Buller. Yes.
    Mr. Cartwright. And there never will be, will there?
    Ms. Buller. No, there will not.
    Mr. Cartwright. Well, I thank you for testifying here 
today, and we take your testimony seriously.
    Ms. Buller. Thank you.
    Mr. Cartwright. Mr. Chairman, I yield back.
    Mr. Walberg. I thank the gentleman.
    Before I recognize myself for 5 minutes of questioning, I 
would ask that an additional document that follows up the 
preceding documents, a letter addressed to the Director of 
Office of Management and Budget on these issues and signed by 
our chairman and ranking member, as well as the corresponding 
chairman and ranking member in the Senate, be introduced into 
the record. Without objection, it will be introduced.
    Mr. Walberg. I thank the witnesses for being here as well 
and carrying on with this continued investigation to make sure 
that your work is accomplished.
    Mr. Horowitz, I still remember our first meeting in my 
office when you came in after your appointment and how direct 
you were about saying my job is to be the job that the OIG is 
supposed to do and to get to the bottom of the issue regardless 
of where we find ourselves, and I appreciate that.
    Let me ask you a question relative to a fairly high profile 
investigation that we've been involved with as well as you. 
Were there restrictions or limitations on your ability to 
access documents in your investigation into the Operation Fast 
and Furious?
    Mr. Horowitz. That's one of them, the investigations, where 
the issue was first raised back in 2011 to our access.
    Mr. Walberg. Did you have to make document requests in 
writing?
    Mr. Horowitz. We did, and the issues came up both in the 
context of our request for grand jury information, which, as 
you know, given the case was a criminal case, were many, as 
well as wiretap information. As you know from our report, there 
were many.
    Mr. Walberg. How long did it take for you to get access to 
those documents?
    Mr. Horowitz. It took many months for this issue to be 
resolved, and it was resolved through an order being issued by 
the leadership, not through our independent access pursuant to 
the IG Act.
    Mr. Walberg. Elaborate on that last statement a little bit.
    Mr. Horowitz. Yes. In our view, we have a right, as 
Congress has laid out in the IG Act in Section 6(a), to get the 
materials we ask for. When we ask for materials, we ask for 
relevant information, responsive information, and in our view 
we're entitled to that by law. Congress has been clear.
    The FBI, other components in the Department have taken the 
view that the IG Act perhaps doesn't mean that. Indeed, we've 
been told that that was the Office of Legal Counsel's 
preliminary view, that it wasn't sure the IG Act meant what it 
said, and as a result it required an order of the Attorney 
General or the Deputy Attorney General to the component that 
said, I find these reviews are of assistance to me as the 
leadership of the Department, and therefore you can give the IG 
those materials.
    Mr. Walberg. How has the requirement that the OIG obtain 
written permission to access documents related to the Fast and 
Furious operation affected your office's ability to conduct a 
complete investigation in the matter?
    Mr. Horowitz. It delays. It frequently has the impact of 
delaying our reviews, not only because we have to go through 
that process to the leadership of the Department, but also 
because, frankly, it encourages other objections by other 
components of other issues. For example, personally 
identifiable information that IG Buller has talked about, that 
issue was thrown up in front of one of our reviews on sexual 
misconduct within the Department by both the FBI and the DEA. 
That's a frivolous objection and after many months of back and 
forth was withdrawn by the agencies and we finally got the 
material.
    Mr. Walberg. How does all this affect your independence?
    Mr. Horowitz. It compromises it, in my view, entirely. I 
should not have to go to the people I oversee for approval to 
get records. Congress I don't think intended that. That would 
undercut in every way our independence.
    Mr. Walberg. We certainly didn't. I appreciate that.
    Let me ask questions of each of the panelists. Other than 
the reason described in the letter from 47 IGs, what tactics do 
agencies use to deny OIGs access to agency records and 
documents?
    And, Ms. Buller, I'll start with you.
    Ms. Buller. In my case, we've had instances where our 
situation and the issue on the Kate Puzey Act has bled into 
other areas. For example, they redid the Crime Reporting 
Management System for standard reports, and when they did that 
we were denied access to that for no reason, because they were 
not a restricted report. So we had to go back to the general 
counsel, and actually I had to go to the director of the agency 
and make a personal plea to get the information that we had 
been getting all along reinstated to us. Once you start down 
the road where they're preventing you from getting information, 
it pops up in different places and unexpected places.
    Mr. Walberg. Mr. Elkins.
    Mr. Elkins. In my case what I see is stonewalling, to a 
large extent parsing out information. You ask for 10 pieces of 
information and you get 2 or 3 pieces of information, and there 
wants to be a discussion on the other 7 pieces of information, 
and then there is continually fighting and going back and 
meetings. And at the end of the day, a year later, you still 
don't have the information.
    And in the back of my mind what I hear is cha-ching, cha-
ching, cha-ching. That's the taxpayers' dollars that are going 
out and being used on the agency side and on my shop's side to 
be able to solve an issue that the IG Act says when we ask for 
information we're supposed to get it immediately and promptly, 
and if we had received it at that time, the cash register 
wouldn't continually be ringing. So that's what I see.
    Mr. Walberg. Mr. Horowitz.
    Mr. Horowitz. As a result of the position that the IG Act 
may not mean what it says, the FBI has put in place in our 
instance their general counsel reviewing all of the materials 
and all of our requests for materials before they come to us. 
That requires reviews by lawyers at the FBI, it delays us 
getting access. And a concrete example of what that means in a 
review we are doing, we asked one of the subcomponents within 
the FBI for an organizational chart. They told us they couldn't 
give it directly to us because of the standing requirement 
within the FBI that materials have to go through the Office of 
General Counsel first. And so we were delayed for weeks in even 
getting an organizational chart so we could figure out who to 
talk to in the course of a review.
    That should not be happening. That is a waste of money, as 
IG Elkins just said. We have entitlement to the access to the 
records. I'm not sure what use there is of the resources of the 
FBI to go page by page through records before giving it to us.
    Mr. Walberg. Thank you.
    My time has expired. Now I recognize the gentlelady from 
Illinois, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    The inspector general community plays a key role in making 
the government more honest, efficient, and effective in 
ensuring wise stewardship of taxpayer money. I have seen 
firsthand their work, and obstruction of their work is simply 
not acceptable. So I take the concerns being aired here today 
very seriously, and hopefully the message that my colleagues 
and I are sending on this point today is heard loud and clear.
    I'd like to discuss the concerns I have with EPA's Office 
of Homeland Security in particular. And, Mr. Elkins, on May 7 
of this year the assistant inspector general for investigations 
at EPA testified before the committee and raised a number of 
access concerns. Specifically, Mr. Sullivan expressed 
frustrations that the EPA's Office of Homeland Security, OHS, 
was denying access to important classified threat material that 
was impeding your ability to investigate threats against EPA 
facilities and its employees. He also testified that OHS 
refused to share misconduct cases with his office because OHS 
believed it was, ``a de facto law enforcement organization in 
itself.'' And finally, Mr. Sullivan raised concerns that OHS 
did not recognize the IG's statutory authority over intrusions 
into EPA's computer networks, apparently denying access to 
classified information related to possible cyber intrusions.
    Is that a fair summary of your concerns also with the OHS 
office under EPA?
    Mr. Elkins. Yes, ma'am, that is a fair characterization.
    Ms. Duckworth. Thank you. So I understand from your 
testimony today that you continue to have problems with access 
to information from OHS. Is that correct?
    Mr. Elkins. Yes, ma'am, that's correct.
    Ms. Duckworth. In June, June 19th of this year, EPA 
Administrator McCarthy sent you a memo entitled ``Working 
Effectively and Cooperatively,'' that's correct? Is that 
correct?
    Mr. Elkins. I don't recall that exact memo. June 19th you 
say?
    Ms. Duckworth. It's called ``Working Effectively and 
Cooperatively.''
    Mr. Elkins. Oh, yes, I do recall that, yes.
    Ms. Duckworth. Okay. So my understanding is that it 
attempts to construct a framework for better cooperation 
between OHS and your office, and section 5 of the memo lays out 
a dispute resolution process. Has that process been used by 
your office since receiving the memo?
    Mr. Elkins. Well, I can speak from my own personal opinion, 
no. I mean, we still have the same issues that we had at the 
date of that letter. So if there was a dispute process that was 
used, it hasn't worked, and I haven't been a part of it.
    Ms. Duckworth. Okay. Do you think it should and it could or 
should be further enhanced, the dispute resolution process, or 
do you think that that is something that's just hindering your 
work in general?
    Mr. Elkins. Well, personally I think the IG Act says all 
means all. I mean, when we ask for information and access to 
documents and individuals, that's exactly what it means. 
Entering into a dispute resolution process sends the message 
that there's some wiggle room, that it can be negotiated, and I 
am totally against that process.
    Ms. Duckworth. So the committee staff attempted to assist 
you in resolving this impasse that you're having with EPA's 
Office of Homeland Security. My understanding from your 
testimony, what you just said, that we're still hitting 
roadblocks. Is that correct?
    Mr. Elkins. Absolutely.
    Ms. Duckworth. What steps do you think would be helpful to 
resolve some of the disputes that you're having, and how can 
this committee be helpful to you in that process?
    Mr. Elkins. Well, I think ultimately the Administrator 
needs to send a clear message that the IG Act requires absolute 
cooperation with the IG. If that message is sent, I think 
everything would change. And until we get some clear message 
from the Administrator to that effect, I think the status quo 
will continue.
    Ms. Duckworth. Do you think the inspector is supporting 
OHS' position that they are a de facto law enforcement agency 
within the EPA?
    Mr. Elkins. I'm sorry, can you repeat the question, please.
    Ms. Duckworth. Do you think that Administrator McCarthy's 
position, from what he has said with this, by supporting this 
memo, ``Working Effectively and Cooperatively,'' and not 
sending out this the statement that you should have full 
access, do you think that he supports what OHS believes, that 
they are a de facto law enforcement organization within EPA?
    Mr. Elkins. Well, I don't want to put words in the 
Administrator's mouth, but the end result is that the status 
quo continues. So I can only infer that the administrator 
agrees with that.
    Ms. Duckworth. Thank you.
    Thank you so much, Mr. Chairman, for having this hearing. 
To the extent that this committee and its staff can be of 
assistance to help address this impasse, we certainly should be 
willing to help.
    And again, Mr. Elkins, thank you for the work that you do 
for us and for the American taxpayer.
    Mr. Elkins. Thank you, ma'am.
    Ms. Duckworth. I yield back, Mr. Chairman.
    Mr. Walberg. Thank the gentlelady.
    I recognize the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman.
    Thank you all for being here and for your work that you do 
every single day for the American taxpayer. We really do 
appreciate what the Office of Inspector General does in every 
one of these agencies. It is extremely important. Congress and 
the American people established all these agencies. These 
agencies just didn't appear out of dust and one day have 
responsibility. Congress created these agencies, and then 
Congress has the oversight responsibilities for these. What the 
Office of Inspector General does is to bring transparency to 
the American taxpayer, and so what you're doing is vital.
    So with that, Mr. Horowitz, if I asked to see all of the 
papers on your desk, would you assume that's only three pages 
or would you assume that's all?
    Mr. Horowitz. I would assume it's everything.
    Mr. Lankford. Would you assume, if I asked for all the 
pages on your desk, that you could go back and seek counsel and 
then come back and say, no, we've really decided all doesn't 
mean all?
    Mr. Horowitz. Pursuant to the IG Act, no, you would get 
everything.
    Mr. Lankford. Okay. I have a real issue when any agency 
steps in and says, I know Congress has required all these pages 
to be turned over, but we've discussed it as an agency and 
we're not going to turn it over. I have an issue with that. I 
have an issue with anytime an agency steps up and says, we 
don't like some of the information coming out and so we're 
going to choose not to give it.
    I don't like it when I read reports from the Attorney 
General when he writes back to the inspector general and says, 
I have determined that providing the OIG with access to it is 
helpful to me, and so I'm going to turn this over because it's 
helpful to me. That implies to me that he's also reviewing 
other documents and saying, I have determined this is not 
helpful to me, so I'm not turning it over. That is not the 
responsibility of the Attorney General of the United States, to 
be able to conceal documents that are not helpful and to turn 
over documents that are.
    So with that, I have several questions. The roadblocks that 
you all have experienced over the last several years, Mr. 
Horowitz, you've been at this how many years?
    Mr. Horowitz. A little over 2 years.
    Mr. Lankford. So of what you have seen and the folks that 
you have talked to--Mr. Elkins, how long have you been at this 
as an inspector general with the inspector general's office?
    Mr. Elkins. Just a little over 4 years, sir.
    Mr. Lankford. Okay.
    Ms. Buller.
    Ms. Buller. Six years.
    Mr. Lankford. The question is, this is obviously an old 
law. This is not new. This is requiring the administration, 
every administration, any administration to say American tax 
dollars are at use here. What have you seen in the individuals 
that you have talked to and other folks that are around that 
have worked in the inspector general office, some for decades, 
what are they experiencing now that has changed, and has it 
changed? Is this just normal protocol from every administration 
to drag their feet on every investigation or is something 
changing? And I'm not asking this in a political way. I'm just 
trying to figure out is this just typical, normal protocol from 
every administration, every agency?
    Mr. Horowitz. I can certainly speak to our situation. I've 
talked to my predecessors, and I think the answer is quite 
clearly no in our circumstances. We did FBI oversight after the 
attacks of 9/11, after the Robert Hanssen scandal. We were 
given complete access to the materials we needed. We didn't 
face these kinds of issues. Frankly, we didn't face these 
issues until 2010 or 2011.
    Mr. Lankford. Are you finding that FOIA requests, any 
information coming out from a FOIA request is coming out as 
fast or at equal speed than what you are getting from the 
inspector general's office?
    Mr. Horowitz. I actually haven't compared those, so I 
couldn't speak to that.
    Mr. Lankford. I can tell you in Congress we are finding 
that, that at times that we'll make a request of a document and 
a FOIA request happens, and the FOIA request gets it the same 
day that we do, sometimes faster. So that has been an issue.
    Mr. Elkins, I have a question for you. You're dealing with 
the EPA, and you said in your oral testimony that you're being 
blocked from the EPA receiving information that they have 
deemed intelligence activity. Tell me about that.
    Mr. Elkins. Yes, sir. The EPA, the Office of Homeland 
Security has asserted that it is the primary office in EPA to 
handle any issues related that have intelligence connected to 
it. Unfortunately, they do not have investigation authority. 
There are only two entities within EPA that have investigative 
authorities. One is the OIG and the other is CID. In terms of 
employee misconduct cases, which typically result in where you 
have intelligence information where individuals inside the 
agency are doing something illegal, it's going to be related to 
employee misconduct.
    Mr. Lankford. Right. So can you tell what intelligence 
activity is within EPA. They're saying they're withholding this 
information from you, you can't look at it because it's 
intelligence activities. Can you tell what that is?
    Mr. Elkins. Well, to the extent that they have the 
intelligence activities information I don't know, because they 
don't share that information with me.
    Mr. Lankford. Well, I can tell you this committee finds 
that ironic because it wasn't that long ago we had someone 
sitting at that same table that pretended to be with the CIA 
and was also with the EPA, and for years--for years--eluded EPA 
oversight because he claimed he was secretly working for the 
CIA. So I find it ironic that the EPA is now telling the 
inspector general, well, this is intelligence related, we can't 
pass this on for oversight.
    I'm going to be very interested to hear from the EPA what 
intelligence activities that they are doing on the American 
people and what intelligence activities that they're doing 
nationwide or worldwide related to the Environmental Protection 
Act and why they would say this is so secret that we're not 
going to allow the American people to see the activities of the 
EPA or to allow the inspector general to participate in 
oversight for that. I think that's a reasonable question to ask 
any agency that doesn't have investigative intelligence 
responsibilities, how they have somehow created their own 
intelligence department and what they are doing with that.
    Mr. Chairman, thank you for allowing me the extra seconds 
here of questioning, and I thank you all for your work.
    Mr. Walberg. I thank the gentleman.
    And now I recognize the gentleman from Nevada, Mr. 
Horsford.
    Mr. Horsford. Thank you, Mr. Chairman. I appreciate very 
much this hearing.
    And we started off saying that this was going to be 
nonpartisan, and unfortunately, as usual, it turns into a bit 
more partisan than it should because the role that the IG plays 
is very important, your mission is important, and we should be 
working in a nonpartisan fashion to support that.
    Mr. Horowitz, I do want to follow up on your comment by my 
good friend, the gentleman from Oklahoma, and to ask you to 
clarify a little bit based on your testimony today and your 
previous testimony in January. I want to ask you about some of 
the concerns that you raised regarding your office's access to 
categories of information relevant to ongoing IG reviews, 
including wiretap and grand jury materials and documents 
related to the Department of Justice's use of material witness 
warrants.
    Mr. Horowitz, as I understand it, in specific instances you 
have had to seek access to this information from the 
Department's leadership, correct?
    Mr. Horowitz. That's correct.
    Mr. Horsford. When testifying about this same issue before 
the committee on January 15th you stated, ``In each instance 
the Attorney General or the Deputy Attorney General provided us 
with the permission to receive the materials.'' Is that 
correct?
    Mr. Horowitz. That's correct.
    Mr. Horsford. You also wrote in your testimony today that 
the Department has informed you that, ``it is their intent to 
continue to grant permission to access records in future audits 
and reviews.'' Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Horsford. So, Mr. Horowitz, as a preliminary matter, 
has all of the information you have sought from the Department 
been provided to you?
    Mr. Horowitz. We are told that it has been.
    Mr. Horsford. Has any information that you have requested 
from the Department ultimately been withheld from you?
    Mr. Horowitz. Ultimately no, we've gotten it after many 
months.
    Mr. Horsford. So during the January hearing you testified 
that your office's access issues were, ``not necessarily 
specific to this Attorney General, this Deputy Attorney 
General, it is an issue that my predecessors have had to deal 
with.'' Is that correct?
    Mr. Horowitz. It is correct that they have had to deal with 
timely production of materials.
    Mr. Horsford. So when you were asked by my good friend, the 
gentleman from Oklahoma, is this an issue that is unique to 
this Department's leadership, that was not the answer you just 
gave.
    Mr. Horowitz. The issue arose in 2010 when my predecessor 
was still there and continued beyond that. There were other 
issues that predated in terms of timeliness, but we have not 
had a legal objection raised by a component until then.
    Mr. Horsford. I appreciate that clarification.
    It is my understanding that the Department recently 
requested a formal opinion from the Office of Legal Counsel to 
resolve a conflict between the interpretation of section 6(a) 
of the IG Act, which grants the IG prompt and full access to 
all necessary requested information, and several statutes that 
restrict the release of certain types of protected information, 
such as grand jury and wiretap material.
    It is also my understanding that the Department has told 
you that it is committed to working with you to provide access 
to all materials necessary for your office to complete its 
review until the OLC releases its opinion. Is this correct? Is 
this a correct understanding?
    Mr. Horowitz. As I made clear in my testimony, the 
leadership has made that clear. The problem is every day this 
goes on without a decision we're not independent, we're not 
acting in an independent manner.
    Mr. Horsford. But that is not an issue of the leadership of 
that department?
    Mr. Horowitz. As I testified today, the leadership has made 
it clear they will continue to issue orders to the components 
to get us the records, but the issue is whether that's really 
required by Congress' Act.
    Mr. Horsford. And so therefore, Chairman, I think to the 
degree there's some clarification, it's the clarification 
within the disputes with section 6(a) and the statutes, not as 
some would like to assert somehow the Department's leadership 
in a lack of providing information that's being requested of 
them. And I just think that that needs to be made clear for the 
record.
    I am encouraged the Department's leadership has been 
working to provide your office with access to the information 
it needs to do your job, including grand jury and wiretap 
information that must be closely guarded. And I hope that both 
parties continue to work together as we move forward on this 
important issue.
    Thank you very much, Mr. Chairman. I yield back my time.
    Mr. Walberg. I thank the gentleman.
    And I guess I would express my pleasure at this hearing so 
far up until now that it has been bipartisan, nonpartisan, 
looking for answers of what is happening now, so that we can 
move forward and do it right. And so I would state that I think 
that is what this committee hearing has developed around and 
over and has been carried on. So I appreciate the bipartisan 
fashion and the nonpartisan fashion so far.
    Having said that, let me recognize, looking at the list 
here, Mr. Duncan from Tennessee.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    I'm sorry, I had to preside over the House, and so I 
couldn't hear all of your testimony, but I introduced the 
original bill to create an inspector general for the Tennessee 
Valley Authority, and I've always believed very strongly in the 
inspector general process. It has been very, very helpful to 
the work of this committee.
    But I was really amazed by the number of inspectors general 
that signed this letter. I haven't tried to count them, but I'm 
told it was 47, I think, or something like that. That's pretty 
amazing. I think that certainly is not something that we've 
ever seen before. So apparently there's pretty serious concern 
by people who are in the know, so to speak.
    Mr. Horowitz, I understand, though, that there are several 
high profile investigations, such as in the New Black Panther 
case and the prosecution of the late Senator Ted Stevens and 
the torture memo case, other matters, where your investigation 
has been hindered or delayed or something by the Office of 
Professional Responsibility. Could you tell me about that and 
explain a little bit about what that's done to your work.
    Mr. Horowitz. Certainly, Congressman. The issue there is 
that when Congress set up our IG office in 1988--we weren't 
part of the original IG Act--it kept in place the Office of 
Professional Responsibility, and it provided that, unlike with 
regard to all the other employees in the Justice Department, 
that we don't have jurisdiction to review alleged misconduct by 
Department attorneys. So as a result, matters such as those 
cases go to the Office of Professional Responsibility, which 
lacks statutory independence, instead of coming to us. So we 
actually have no authority to investigate those matters.
    Mr. Duncan. Well, I understand that, but what I'm asking 
you, there have been these high profile situations, and I'm 
sure several much lower profile cases where there has been 
misconduct by Department of Justice lawyers. Do you think that 
your office would be capable of investigating this type of 
misconduct along with the Office of Professional 
Responsibility?
    Mr. Horowitz. We absolutely think that, and I think we've 
demonstrated that, frankly, by issuing reports regarding agent 
misconduct, such as some of the work we've done in the FBI 
context. We've demonstrated quite ably our abilities to do 
that. And I think the same independence that Congress believes 
is important, independent oversight over the FBI, should also 
exist with regard to Department attorneys.
    Mr. Duncan. I'll ask the panel as a whole, do you feel that 
there's been an overclassification of documents by the 
departments or agencies with which you have worked or in which 
you've worked or in other departments that you've read or heard 
about?
    Mr. Elkins. I have to concur with Mr. Horowitz here, yes, I 
have heard that. In my particular agency that has not been an 
issue particularly, but I have heard that issue raised, yes.
    Ms. Buller. Peace Corps doesn't have original 
classification authority, so that's really not an issue at the 
Peace Corps.
    Mr. Horowitz. We have found some issues related to that in 
one of the reports we did last year and have reported out on 
that.
    Mr. Duncan. All right. Well, thank you very much, Mr. 
Chairman.
    Mr. Meadows. [Presiding] I thank the gentleman.
    And the chair recognizes the gentleman from Illinois, Mr. 
Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And let me begin by emphasizing how much I value the work 
of the inspector generals community in helping our government 
function better and become more efficient. So I want to thank 
all of you for being here.
    It is imperative that all inspectors general have a good 
working relationship with the agencies they are tasked with 
overseeing in order to fulfill their mission of identifying and 
eliminating waste, fraud, and abuse in the Federal Government.
    Mr. Horowitz, I would like to ask about the Department's 
overall level of cooperation with your office. You testified 
before the committee on January 15 of this year that, ``Most of 
our audits and reviews are conducted with full and timely 
cooperation from the Department's components.'' Is that a 
correct----
    Mr. Horowitz. That's correct. In most of our work we have 
had full cooperation.
    Mr. Davis. Would it be fair to say that the access concerns 
you raised in your testimony are limited to specific instances 
and not representative of a larger-scale, agency-wide problem?
    Mr. Horowitz. I would say there are limited reviews where 
we've had this problem. The problem, though, is, as IG Elkins 
and IG Buller said, it takes on a life of its own. We get what 
I think are, frankly, frivolous objections in other instances 
that don't have to go to the Deputy Attorney General or the 
Attorney General because I'm able to work them out with agency 
leadership at the DEA or the FBI, wherever it is. But these 
problems, once some people see they can object, you get more 
and more objections, frankly.
    Mr. Davis. Thank you. Your office's semiannual report to 
Congress for the October 2013 through March 2014 reporting 
period states that it has closed 184 investigations, issued 35 
audit reports, and made 137 recommendations for management 
improvement. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Davis. The report mentions, for example, that your 
office issued an audit of the Department's efforts to address 
mortgage fraud, and the Department agreed with all seven of the 
IG's recommendations. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Davis. Your office also examined the FBI's terrorist 
watch list operations and practices and issued 12 
recommendations, all of which the FBI agreed with. Is that 
correct?
    Mr. Horowitz. That's correct.
    Mr. Davis. Mr. Horowitz, can you then give us an overview 
of how these audits and recommendations help streamline costs 
and improve the Department's programs and operations?
    Mr. Horowitz. Well, we make these recommendations to do 
precisely that, Congressman, so that we can not only advise the 
agency leadership what steps need to be taken, but the Congress 
itself as it does its oversight. And the recommendations we 
make go to the deficiencies we find, either management or 
waste, fraud, misuse that save the taxpayers every year tens of 
millions of dollars.
    Mr. Davis. Then it sounds to me like your office is doing a 
great deal of very valuable work to ensure that the agency 
maintains high standards of integrity and accountability. I 
want to commend and thank you again for your efforts.
    And I thank all of you for being here this morning and 
clarifying, testifying, and giving us the assurances that we 
need to have to know that you're doing good work and that the 
oversight of our government is in good hands.
    Mr. Chairman, I thank you and yield back the balance of my 
time.
    Mr. Meadows. I thank the gentleman, and the chair 
recognizes himself for 5 minutes.
    Thank you, all of you, for your testimony. Mr. Elkins in 
particular, welcome. It's been a real pleasure to work with you 
in a nonpartisan way. I think all of us here would agree that 
we don't want Republicans, Democrats, or unaffiliated, or 
agencies to influence your work, that indeed it needs to be 
independent, that the American taxpayers depend on your work. 
And so I just say thank you to each one of you.
    Ms. Buller, I want to start with you. This continued 
stonewalling of access to documents, what kind of harm, 
potential harm can you see that would come from this, 
specifically with your work?
    Ms. Buller. Well, in our case we do have the memorandum of 
understanding, so we are somewhat receiving information, but 
the problem with that is it's a temporary measure and we can't 
rely on it being there because it can be taken away at any 
time. And if we don't receive access to the information that we 
need, we can't ensure the volunteers who have been victims of 
sexual assault are receiving the types of care and services 
that they need and are entitled to in order for them to move on 
with their lives.
    Mr. Meadows. So is it your testimony today that victims 
might potentially continue to suffer if you don't get the kind 
of access to documents that is outlined in the memo of 
understanding? If they quit providing that could victims 
continue to be harmed?
    Ms. Buller. We'll never be able to tell. That's the big 
problem. We won't be able to tell whether or not the agency is 
doing what it's supposed to do or whether or not they're 
actually performing in a poorer manner than they were before. 
We will be able to tell only from when the victims come in, 
like they did in 2010, and complain about their treatment by 
the agency.
    Mr. Meadows. So what rationale would be out there to 
justify--and this question is to all of you--what rationale is 
out there to preclude you from getting information that would 
be deemed beneficial to the American people? Why should they 
withhold stuff from you? Mr. Elkins, we can start with you.
    Mr. Elkins. Yes, sir. I think that's a good question, and I 
scratch my head sometimes trying to figure out the answer to 
that. But it seems to me that sometimes some of these defenses 
are made out of whole cloth, they just kind of pop up based on 
the circumstances. So it's random, and that's part of the 
problem.
    Mr. Meadows. So there are times when they will very 
willingly give you information and then other times where they 
say you can't have this?
    Mr. Elkins. Yes, I think that's a fair assessment.
    Mr. Meadows. Is that because the employees that you have 
working for the OIG are somewhat inferior to the employees of 
the agencies?
    Mr. Elkins. Oh, no, no.
    Mr. Meadows. Well, I would hope you would answer that in 
that manner. And so what you're saying is the level and 
professionalism of your employees would be equal with the 
agency?
    Mr. Elkins. Oh, absolutely.
    Mr. Meadows. Do you think that the level of professionalism 
and privacy concerns within your agency is equal to that of the 
EPA as a whole?
    Mr. Elkins. Absolutely.
    Mr. Meadows. Would you agree with that, Mr. Horowitz? Would 
you say you have the same desire to protect the integrity of 
the process?
    Mr. Horowitz. Absolutely. And we have a track record of 
handling among the most sensitive national security information 
that the FBI has through our review of section 702 of FISA, 
through various Patriot Act reviews we have done that Congress 
has mandated. We have among the most sensitive information that 
exists in our possession.
    Mr. Meadows. So there is not a clearance issue here, there 
is not a propriety issue. And so really there is no reason at 
all why you should not be getting 100 percent of what you 
request.
    Mr. Horowitz. Absolutely.
    Mr. Meadows. I think, Ms. Buller, you said earlier that 
there's never been a case where some of that information has 
been disclosed by the OIG in terms of causing harm to a 
potential victim. Is that correct?
    Ms. Buller. That's correct.
    Mr. Meadows. And so if we have all of these, then what is 
the real genesis of this whole problem of why they do not want 
to share it with really the only independent source out there 
to protect the American people? What is the reason these 
agencies would do that, Mr. Elkins?
    Mr. Elkins. It seems to me that there may be a belief that 
the IG Act doesn't mean what it says that it means.
    Mr. Meadows. So has this been a new revelation, that all of 
a sudden we have this new revelation in the last couple of 
years that it doesn't mean that? Why did they come to this 
conclusion recently?
    Mr. Elkins. That's a good question, and that's probably one 
that you would have to----
    Mr. Meadows. So we have got new counsel that's interpreting 
it a little bit differently? So what you are saying is from a 
bipartisan standpoint what we need to do is make sure that the 
ranking member and the chairman come together and say, well, we 
mean what we say?
    Mr. Elkins. Well, and one other thing, sir. There is no 
enforcement mechanism in the IG Act.
    Mr. Meadows. All right, I'm going to close with this: What 
would be the great enforcement mechanism, that if they don't 
give you 100 percent of the documents that they get their 
budget cut by 10 percent?
    Mr. Elkins. Sir, I will leave that up to you.
    Mr. Meadows. I'll certainly yield to the ranking member.
    Mr. Cummings. Just this one question, Ms. Buller. I'm just 
trying to figure out what you are able to get under the 
memorandum of understanding. Let's say, for example, someone is 
raped. Right now you can get the--what can you get?
    Ms. Buller. Right now we can get access to the restricted 
report that's filed in the incident report. We may have more 
difficulty getting other information concerning that particular 
incident because we don't have a personal identifying number or 
anything to associate with it.
    Mr. Cummings. So you can get the details of the rape? 
Because I'm kind of confused when I look at what you agree to. 
Go ahead.
    Ms. Buller. With the exception of explicit details, and 
we've tried to define that MOU very narrowly, salacious, things 
that wouldn't necessarily add anything to our review.
    Mr. Cummings. I see. All right. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair is going to recognize the gentleman from Oklahoma 
for 4 minutes at this point.
    Mr. Lankford. Thank you, Mr. Chairman. I'm not going to 
need all that time. I just need to follow up.
    One of the documents that, Mr. Horowitz, you provided was 
some background information about grand jury investigations, 
specifically about an Oklahoma case that I want to bring up to 
you. In the 1990s the Office of Inspector General at that time 
requested information related to an FBI agent's testimony and 
the Bureau of Prisons related around a gentleman who died in 
the Federal Bureau of Prisons in Oklahoma named Ken Trentadue. 
That was a very controversial case in many ways in Oklahoma. 
There was a lot that happened around that case. And still a lot 
of questions still spin around the death of Ken Trentadue in 
Oklahoma.
    Your reference to that case, I just want to be able to ask 
why you're bringing that up at this point, what you have 
learned from it, what was established then, and what's 
happening now.
    Mr. Horowitz. So this is now the 1997-1998 time period. Our 
office was involved in the misconduct review related to that 
matter. We needed grand jury information, and the Justice 
Department, the Civil Rights Division then, but the Justice 
Department supported our right of access to grand jury 
information and went to court, to two different Federal judges 
in Oklahoma, to confirm that the Department's reading of the 
grand jury statute allowed them to give us those materials.
    The two judges both said, you, Justice Department, are 
right in your legal interpretation--not the OIG, the Justice 
Department--and under the law the IG is entitled to get these 
grand jury materials. To our mind that should have resolved 
this issue. That's now 15 years ago. Two Federal judges have 
both ruled. They're Article III judges. We are at a loss to 
understand why nonconstitutional officers would be deciding the 
issue any differently.
    Mr. Lankford. Okay. So fast forward to now today and to 
what you're dealing with. You're not getting access to grand 
jury information currently. Is that correct?
    Mr. Horowitz. The objection is we're not entitled as a 
matter of law, so we have to go through this mechanism of 
getting the Attorney General or the Deputy Attorney General's 
approval to get it.
    Mr. Lankford. So at that point you now have to make a 
request and the Attorney General can say I either want you to 
have this or I don't want you to have this. It goes back to 
some of the earlier statements that I made, that he now has the 
ability to say this helps me or doesn't help me and so I'm 
going to give it to you or not give it to you, not based on 
I've made the request, a Federal judge has already ruled on 
this in Oklahoma, this has resolved issues. Is that correct or 
not correct? I want to make sure I get this correct.
    Mr. Horowitz. It's ultimately the decision of the Attorney 
General or the Deputy Attorney General.
    Mr. Lankford. Okay. Rather than I make the request, you're 
already entitled to that?
    Mr. Horowitz. Correct.
    Mr. Lankford. Okay. So how many cases are out there that 
are like that for you? Do you have a guess of how many 
documents or cases that you're either getting delayed response 
or getting partial response or getting a response at some date 
in a future time period? Because you had testified earlier that 
you are getting records, you're just not getting them in a 
timely manner.
    Mr. Horowitz. There are probably 10 or more examples I 
could give of instances where we've either had the legal 
objection raised or the timeliness issue come up in the last 2 
years. At least. I could probably make an even longer list if I 
went through it with my staff.
    Mr. Lankford. Okay. Thank you.
    Mr. Chairman, I appreciate your allowing me to ask that 
Oklahoma-related question. Thank you.
    Mr. Meadows. I thank the gentleman from Oklahoma.
    The chair recognizes the ranking member, the gentleman from 
Maryland, Mr. Cummings.
    Mr. Cummings. As we close, I want to thank all of you for 
being here today. These disputes are very serious because they 
without a doubt impede you from doing your work. On the other 
hand, of course you have the agencies, such as in, I guess, in 
all these cases, who cite laws that conflict with your duties 
and the rules and regulations that you operate under. It seems 
like we ought to be able to resolve this.
    I have two concerns, and one is, if we were to pass 
legislation, and sharing your viewpoint, Mr. Elkins, and if it 
does not prevail, I think that makes your position weaker, your 
present position. The other thing that I'm concerned about is 
that, if we were to do a universal thing that says your access 
to information is superior to everything, I don't know what 
that universe of everything is, you know? And I'm sure you 
don't either. You may know in your area, but we're talking 
about 47 of you all.
    So then considering what the chairman talked about in 
Executive order, I think the President probably would face the 
same kind of problem with regard to what that universe is. But 
there's got to be a way to deal with this.
    Ms. Buller, the reason why I keep coming back to you is 
because, I mean, we've got an agency that, when you have an IG 
office whose duty it is to get information and protect these 
victims and not be trusted with the information it seems like 
there's something missing there, that we ought to be able to 
get to the bottom line is how do we protect victims, how do we 
get the information that we need so that we can accomplish 
that.
    So we're going to put our heads together and see what we 
can do to try to resolve these issues, but they are serious 
issues. I would imagine that if the agencies came in they 
probably would say, we really do believe in what we're doing, 
we're trying to obey the law, too. So it's going to take a 
little bit of effort--a lot of effort--but I do believe that we 
should be able to resolve this.
    My last question. Do you all believe an Executive order is 
the answer? Ms. Buller.
    Ms. Buller. I think anything that sends a very strong 
message to agencies that the IG is there to perform oversight 
and in order to provide that oversight they need access to 
agency records. Anything that is very clear and states that 
without exception I think would help.
    Mr. Cummings. Mr. Elkins.
    Mr. Elkins. Yeah, I agree that Executive order would be 
helpful. You know, also I'd just like to remind the panel here 
that in administrative law cases there's a very rock solid case 
which is called Chevron that agencies rely on to determine 
whether or not deference should be paid to an agency that has 
jurisdiction. Well, I think in our case Chevron would apply as 
well. The IG Act, we're the subject matter experts there, and 
there should be a certain amount of deference to our 
interpretation as to what our access should be. That deference 
is not given to us. Agencies would use Chevron all the time. 
But in our circumstance, when we try toassert a Chevron 
argument, it's ignored.
    Mr. Cummings. Mr. Horowitz.
    Mr. Horowitz. I would agree with you, Congressman, that a 
clarification is critical. An Executive order, a prompt OLC 
decision, we've been waiting for a few months now, that would 
say what does the law mean. Because that's the objection we're 
all getting at some level, which is Congress didn't mean in 
6(a) what we all think it means, the FBI is reinterpreting 
statutes, DEA, others. In my agency, the other inspectors 
general have said the same thing. Ultimately they're trying to 
interpret what Congress meant.
    Mr. Cummings. Right.
    Mr. Horowitz. So it's really all your issue here that 
you've got the executive branch, in my case OLC, which speaks 
for the executive branch, trying to divine does 6(a) mean what 
it says, as we think has always been the case, at least until 
2010 when the FBI general counsel raised an objection, or what 
the FBI general counsel and some others have said. We need 
clarity on that issue. An Executive order would do it, an 
immediate OLC order would do it, and then Congress can decide 
whether to fix 6(a) at that point or not. But that's really 
what we need.
    Mr. Cummings. Thank you all very much.
    Thank you, Chairman.
    Mr. Meadows. I thank the gentleman.
    I thank each of you for your testimony. I think today 
highlights really in a bipartisan way the need for full 
disclosure to the OIGs, not just with your agencies that you 
oversee, but across the board.
    Ms. Buller, some of the testimony that you've given us 
gives us great pause because sometimes we look at these things 
as just administrative, and yet the victims that you have 
discussed are real. And I don't believe that we could tolerate 
the lack of cooperation. Ultimately the information that these 
agencies have belong to the American taxpayers, they're not 
proprietary to an agency, they're not proprietary to Congress, 
they're not even proprietary to you. They belong to the 
American taxpayers. And what we must do is have full and 
complete disclosure.
    To give the best example, if the IRS comes in and does an 
audit, I don't know the universe of which they may be asking 
for. When they say they want all of the documents, generally 
they mean all of the documents. And I would suggest that that 
simple test be one that the agencies hear loud and clear today, 
that when you request it, they are to provide it. And then we 
are going to hold you accountable to make sure that those 
disclosures and the integrity and the professionalism that each 
one of you have assured me that you have, that that gets abided 
by, because a fracture there really does irreparable harm.
    We've got a lot of great Federal workers. For many of the 
American taxpayers the OIG is the only thing that they can 
believe in to hold these agencies accountable.
    Mr. Elkins, you know in my particular district I've got an 
issue that has been going on for 25 years with the EPA. They 
have no confidence, Democrats, Republicans, unaffiliated, none 
of them have confidence in that agency to deal with that 
problem. Their last hope, truly their last hope is your office, 
and your involvement in the independence of that and the full 
disclosure is what they're counting on. And so I think that 
that can be echoed across all of the OIGs.
    And so I thank you for your testimony, I thank the ranking 
member for his closing comments. And I look forward to you 
providing to this committee three recommendations on how we can 
help with the enforcement component, the stick or the carrot 
that we need to have, I need to know three suggestions that you 
might have that we can encourage these agencies to provide what 
the American people deserve.
    Mr. Meadows. And with that, I adjourn this hearing.
    [Whereupon, at 11:36 a.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
